Eugene R. Wedoff
144 N. Elmwood Avenue
Oak Park, IL 60302
(312)285-5849
erwedoff@me.com

October 2, 2019
Scott S. Harris
Clerk of The Court
Supreme Court of The United States
One First Street, N.E.
Washington, D.C. 20543-0001
Re:
City of Chicago v. Robbin L. Fulton, Jason S. Howard, George Peake, and Timothy
Shannon, Case No. 19-357
Dear Mr. Harris:
I am counsel for Robbin L. Fulton, George Peake, and Timothy Shannon (“Respondents”).
Mr. Howard filed a notice in the Seventh Circuit indicating his intention not to participate in the
appeal in that court. On September 17, 2019, the City of Chicago filed a petition for a writ of
certiorari to review the decision of the United States Court of Appeals for the Seventh Circuit,
affirming the judgments entered in the Respondents’ respective bankruptcy cases in their favor
and against the City of Chicago (“Petitioner”). Respondents’ brief in opposition is due on October
18, 2019.
Pursuant to Supreme Court Rule 15.3 and Rule 30.4, I write to request a thirty-day
extension of time to file the brief in opposition, through and including November 18, 2019. This
request is not made for purposes of delay, but is necessitated by the fact that I am currently working
on a petition for rehearing or rehearing en banc in the case Bush v. United States of America, No.
16-3244 (7th Cir.), which will be due on October 4, 2019.
I have contacted counsel for the Petitioner, Mr. Craig Goldblatt, who has indicated that he
has no objection to the extension.
Thank you for your attention to this matter.
Sincerely,

EugsMe R. Wedof
cc: Craig Goldblatt
Mark A. Flessner

